<html>
<title> - NOT-SO-GOOD NEIGHBORS:. RUSSIAN INFLUENCE IN BELARUS</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
                         NOT-SO-GOOD NEIGHBORS:.
                      RUSSIAN INFLUENCE IN BELARUS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 116-1-11]
                            
                            
                            
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                            
                            
                            


                       Available via www.csce.gov
                       
                       
                       
                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 38-441 PDF            WASHINGTON : 2019
                      
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

               HOUSE                            SENATE

                                                   

ALCEE L. HASTINGS, Florida            ROGER F. WICKER, Mississippi, 
Chairman                              Co-Chairman
JOE WILSON, North Carolina            BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama           JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri          CORY GARDNER, Colorado
STEVE COHEN, Tennessee                MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania       JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina        THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin                 TOM UDALL, New Mexico
MARC VEASEY, Texas                    SHELDON WHITEHOUSE, Rhode Island

                
                                    
                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed



                                  [ii]
                                  
                                  
                                  
                         NOT-SO-GOOD NEIGHBORS:

                      RUSSIAN INFLUENCE IN BELARUS

                              ----------                              

                           November 20, 2019
                             COMMISSIONERS

                                                                   Page
Hon. Alcee L. Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Joe Wilson, Ranking Member, Commission on Security and 
  Cooperation in Europe..........................................     2

                               WITNESSES

Andrei Yeliseyeu, Head of Monitoring Unit, International 
  Strategic Action Network for Security (iSANS); Research 
  Director, EAST Center..........................................     4

Sofya Orlosky, Senior Program Manager for Eurasia, Freedom House.     6

Franak Viacorka, Research Media Analyst (contractor), U.S. Agency 
  for Global Media...............................................     7

Brian Whitmore, Senior Fellow and Director of the Russia Program, 
  CEPA...........................................................     9

                                APPENDIX

Prepared statement of Hon. Alcee L. Hastings.....................    26

Prepared statement of Hon. Joe Wilson............................    28

Prepared statement of Hon. Benjamin L. Cardin....................    29

Prepared statement of Andrei Yeliseyeu...........................    30

Prepared statement of Sofya Orlosky..............................    34

Prepared statement of Franak Viacorka............................    46

Prepared statement of Brian Whitmore.............................    51


                         NOT-SO-GOOD NEIGHBORS:



                      RUSSIAN INFLUENCE IN BELARUS

                              ----------                              


                           November 20, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:58 a.m. in Room 210, Cannon House 
Office Building, Washington, DC, Hon. Alcee L. Hastings, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.

    Commissioners present: Hon. Alcee L. Hastings, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. Joe 
Wilson, Ranking Member, Commission on Security and Cooperation 
in Europe.

    Witnesses present:  Andrei Yeliseyeu, Head of Monitoring 
Unit, International Strategic Action Network for Security 
(iSANS); Research Director, EAST Center; Sofya Orlosky, Senior 
Program Manager for Eurasia, Freedom House; Franak Viacorka, 
Research Media Analyst (contractor), U.S. Agency for Global 
Media; and Brian Whitmore, Senior Fellow and Director of the 
Russia Program, CEPA.

 HON. ALCEE L. HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Good morning, everybody. It's 10, and I have 
a bad habit of trying to start on time and end on time.
    You are welcome here to the U.S. Helsinki Commission 
hearing entitled ``Not-So-Good Neighbors: Russian Influence in 
Belarus.'' And with that, we'll come to order and have opening 
statements and then turn to you all.
    This is a timely hearing coming off of the Belarusian 
election, in addition to the fact that I know all of you know 
that there is an ongoing proceeding that Russia is implicated 
in here on the Hill that is much more popular for the moment.
    We all know that the Kremlin's disinformation and political 
interference reaches the shores of the United States and 
elsewhere in the region of the Organization for Security and 
Cooperation in Europe. Yet, it's easy to lose sight of the 
power that Vladimir Putin's Russia wields in his own 
neighborhood outside of the ongoing aggression in Ukraine and 
elsewhere.
    In the case of Belarus, Russia's western neighbor, the grip 
of the Kremlin is no less pervasive but much less obvious. 
Russia has not started a hot military conflict in Belarus as it 
has in Ukraine, but rather employs economic, social, political, 
and information leverage to weaken the sovereignty of Belarus 
and pull the country further into its orbit.
    I saw this firsthand during my last trip to Minsk for the 
OSCE Parliamentary Assembly annual session in July 2017. 
Unfortunately, Belarus is ripe for infiltration by external 
forces.
    Civil society and fundamental freedoms have been stifled 
under the 25-year rule of Belarusian President Alexander 
Lukashenko, who has cultivated a strong working relationship 
with Vladimir Putin. The two use similar tactics to crush 
dissent in their respective countries.
    Belarus is also heavily economically dependent on Russia, 
with its economy propped up by discounted oil and gas from its 
neighbor. The shared Soviet history of the two countries makes 
it easy for Russia to appeal to the hearts and mind[s] of many 
Belarusians, and the Lukashenko regime is feeling the squeeze. 
And with little linguistic or cultural barriers, the Kremlin 
and its partners easily operate in the media and information 
sphere in Belarus, spreading pro-Russia propaganda in an effort 
to keep Belarus from turning toward the West.
    In this context, Lukashenko has sought to vector West for 
fear of his regime. He has sought to engage with leaders of the 
European Union through Eastern Partnership, and when possible 
has sought meetings with U.S. leaders--although he wouldn't 
meet with me when I was there, but I did meet with the then-
foreign minister--including the delegation that I told you that 
I traveled with. I found that he, like other autocrats, was not 
interested in the dreams of his people, but made standard 
stability appeals to defend his regime.
    I remember that there were three people in jail, and we 
talked with them about trying to get them out. They were his 
opponents in the election. And one man was very brave, as was 
his wife. I wish I could remember their names.
    Despite Lukashenko's lack of imagination and decades of 
oppressing his people, we must not forget that Belarus is an 
independent country whose sovereignty is under attack. And as 
another target of Russian malign influence in the OSCE area, 
proper scrutiny will prevent active conflict and empower those 
oppressed voices who have waited so long for justice.
    Today we will explore the complexities of the Russia-
Belarus relationship and what the United States can do to 
defend Belarus, this important crossroads between Russia and 
the West, against Russian attacks.
    At this time I would like to acknowledge my ranking member 
and good friend. We just came off of an interesting election to 
Tunisia and Morocco and Israel. We learned a lot, and expect to 
learn a lot here this morning.
    Joe?

  HON. JOE WILSON, RANKING MEMBER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wilson. Thank you, Mr. Chairman, and I appreciate your 
leadership and insight. And indeed, it was an extraordinary 
CODEL to Tunisia, to Israel, and ending up in Marrakesh, 
Morocco, with the OSCE conference, and very enlightening. And 
we look forward today to the expert witnesses and your input.
    As we monitor Putin's malign influence on its neighbors, as 
well as far and abroad, it seems we pay too little attention to 
what's going on with the talented people of Belarus. Perhaps 
this is because we have so much more evidence and headline-
grabbing news available when discussing the Kremlin's attempts 
to meddle in our own elections and society. But just as 
dramatic and concerning is Russian adventurism, whether it be 
in Syria, Moldova, Ukraine--resulting in 13,000 deaths--in the 
Republic of Georgia, and even in places as far-flung as the 
Central African Republic.
    Vladimir Putin tramples on international norms and attempts 
to erode liberal democratic norms where they are just beginning 
to grow, or even where they're already well-established.
    Though not a military conquest, Putin's designs on Belarus 
should be just as concerning to us as the above-mentioned 
examples.
    As the chains to the old Iron Curtain have been broken, and 
democracy and the rule of law has moved steadily forward, 
Belarus remains a stubborn outlier. Why is this? We know that 
part of the reason is lack of sufficient and significant 
structural reforms after the fall of the Soviet Union. Still 
known for its collective farms, Belarus has an economy stuck in 
the past. Another part of the reason is the dictatorship of 
President Alexander Lukashenko, who has ruled the country for 
most of the post-Soviet existence by falsifying elections and 
marginalizing, even violently punishing dissenters. And 
finally, Putin's tight grip on its old Soviet republic is 
unrelenting, taking advantage of Belarus' weakness to create a 
vassal state subject to its whims.
    We know that, as longtime authoritarian leaders, Putin and 
Lukashenko sadly have many things in common and many incentives 
to work together. As we work--as we hope we will learn over the 
course of this hearing, there are questions about how long this 
cozy relationship can last. Lukashenko is a tyrant, but not a 
fool. He knows that engagement with Europe and the West is not 
optional in this day and age. He sees Putin's greedy fingers 
have reached into Ukraine. He has been forced to make some 
difficult decisions about the direction the country should 
take. We can only hope that these decisions give greater 
freedom to the deserving people of Belarus, who have for too 
long lived without the opportunity to express themselves 
without fear or repression.
    The younger, globally connected generation in particular 
can easily see the opportunities and freedom available in the 
West. They, along with all Belarusians, deserve the opportunity 
to determine their own future. A Belarus tied down by Putin is 
a Belarus stuck in the failed Soviet past and subservient [to] 
Moscow.
    I look forward to hearing our witnesses comment on the 
prospect for the Belarus future and the ways to combat Putin's 
pernicious influence.
    Thank you, and I yield back my time.
    Mr. Hastings. Thank you, Representative Wilson.
    We have assembled here an expert panel to discuss Belarus 
in the context of Russia's malign influence.
    First we have Andrei Yeliseyeu, who serves as head of the 
Monitoring Unit for iSANS, which is the International Strategic 
Action Network for Security, based in Warsaw, Poland. ISANS is 
an international expert initiative established in 2018 and 
aimed at detecting, analyzing, and countering hybrid threats 
against democracy, rule of law, and the sovereignty of states 
in Western, Central, and Eastern Europe and Eurasia.
    Our next witness is Sofya Orlosky, the senior program 
manager for Eurasia of Freedom House here in Washington, where 
she heads the development of engagement and advocacy strategies 
for its Europe and Eurasia portfolio. And, Sofya, thank you so 
much for the work you do with the Helsinki Commission.
    Then we will hear from Franak Viacorka. I'm not going to 
try to do that again. [Laughs.] Franak is the research media 
analyst at the U.S. Agency for Global Media, where he's focused 
on the digital markets of Eurasia.
    And finally we have Mr. Brian Whitmore, the senior fellow 
and director of the Russia Program at the Center for European 
Policy Analysis here in Washington. He's also the author of the 
Power Vertical Blog and host of the Power Vertical Podcast, 
both of which focus on Russian affairs. Must have been real 
busy here lately.
    Please note that the full biographies of our witnesses can 
be found in the provided materials. And I thank you to our 
assembled witnesses, and I thank all of you in the audience for 
being here as well. And I call on Mr. Yeliseyeu to begin his 
testimony.

   ANDREI YELISEYEU, HEAD OF MONITORING UNIT, INTERNATIONAL 
    STRATEGIC ACTION NETWORK FOR SECURITY (iSANS); RESEARCH 
                     DIRECTOR, EAST CENTER

    Mr. Yeliseyeu. Dear Mr. Chairman, Co-Chairman, thank you 
for organizing this Belarus-related hearing, particularly in 
this peacetime in Washington, DC, and for the opportunity to 
join this distinguished panel on the threats to Belarusian 
sovereignty.
    Kremlin aims at putting Belarus under its complete 
influence, essentially turning Belarus into a part of Soviet 
Union. To achieve this goal, Kremlin applies political, 
economic, and propagandistic pressure on the Belarusian 
authorities and the Belarusian society. It sees Belarus as an 
integral part of the so-called Russian world.
    Russia wants Belarus to cede a large part of its 
sovereignty toward Moscow in exchange for further economic 
support. Kremlin conditions future oil and gas deals and loan 
assistance to Minsk with deeper integration within the so-
called Union State. Belarus is very vulnerable to malign 
Kremlin influence due to deep institutional, economic, social, 
and cultural connections between the two countries' elites, and 
because of short-sighted repressive policies of the Belarusian 
authorities against the Belarusian language, independent media, 
and civil society.
    The threat is that even deeper integration, in the form 
promoted by Russia, will leave Belarus with only nominal 
sovereignty, when in reality Minsk will have to agree to 
virtually any domestic or foreign policy with Moscow. You all 
must be aware that Ukraine remains the top target of Kremlin 
propaganda. Belarus is not far behind Ukraine in terms of scale 
and scope of propaganda and disinformation in the online space.
    In the last 2 years, many propaganda websites, which 
previously had Ukraine or Syria as their primary topics, added 
Belarus as additional regular target. A dozen of new active 
outlets of disinformation, which are entirely devoted to events 
in Belarus, have appeared online. Their publications use 
aggressive chauvinistic rhetoric, sometimes openly questioning 
the existence of an independent Belarusian ethnic group or 
language, discrediting and distorting the history of Belarus. 
Anti-Belarusian propaganda says the Belarusians are part of a 
Russian people, and that the Belarusian language was 
artificially created by the hostile West.
    As a disinformation researcher, I have studied thousands of 
disinformation cases. Yet, occasional claims come as a surprise 
even to me, as someone who's seen a lot. For example, Schengen 
visa fees for Belarusians are high because the number of 
homosexuals per capita in Belarus is very low, one propaganda 
outlet claimed not long ago. They allege that the hostile EU 
wants to give Belarusians cheaper visas only in exchange for 
undermining the institution of family. Due to irresponsible 
state policies and the media field, a large part of the 
Belarusian population literally believes in the Russian media 
space. Oddly enough, Western media corporations, such as Google 
and Apple, unwittingly make Russian online media presence in 
Belarus even larger.
    This happens because of the absence of fully functioning 
geotargeting for Belarus in their automatically generated news 
services. As a result, internet users who select Belarus as 
their location are still offered a lot of Russian media content 
in their newsfeeds. A recent declaration by the largest Belarus 
media community members calls upon all interested actors to 
make Belarus an independent country on the global internet map 
by recognizing the Belarusian segment of the internet as a 
distinct market.
    Ladies and gentlemen, a loss of Belarusian sovereignty 
would be a catastrophe not only for the people of Belarus who 
dreamed of a sovereign and independent country for many 
generations. This tragic turn would also encourage further 
Russian aggressive behavior toward its immediate neighbors and 
instigate new Russian attempts to destabilize regional 
security. Great attention of the international community to 
developments in Belarus and urgent efforts are needed to help 
promote the sovereignty of Belarus, despite the very 
complicated relationship with its nondemocratic government.
    On behalf of the whole iSANS team, I want to thank the U.S. 
Helsinki Commission once again for holding this hearing and 
placing your focus on Belarus and threats to its sovereignty. 
And I look forward to answering your questions.
    Mr. Hastings. Right. Ms. Orlosky.

  SOFYA ORLOSKY, SENIOR PROGRAM MANAGER FOR EURASIA, FREEDOM 
                             HOUSE

    Ms. Orlosky. Thank you. Chairman Hastings, Ranking Member 
Wilson, it is an honor to testify in front of you today. I ask 
that my full written testimony be entered into the record.
    I'll start with a vital contributing factor to Belarus' 
resilience to external influence, that is strong democratic 
governance. Pluralistic and fair elections, transparent and 
accountable government, thriving civil society, businesses, and 
independent media are key internal safeguards against economic, 
political, and sociocultural encroachment on a nation's 
sovereignty. Sadly, we've seen little progress in strengthening 
these institutions in Belarus.
    Last Sunday's elections again fell short of the OSCE 
standards. The OSCE election monitoring mission summarized it 
bluntly: Fundamental freedoms were disregarded, and the 
integrity of the election process was not adequately 
safeguarded. The resulting lower chamber of the parliament is 
uniformly loyal to the incumbent government, the electoral 
reform proposals offering no meaningful change.
    Yes, we see fewer arrests and prison terms, which makes the 
Government of Belarus look good in the eyes of the West. But 
make no mistakes, this ``liberalization,'' quote/unquote, has 
happened before in 2006, 2010, and 2015. And each time a thaw 
was followed by a new cycle of repression. Except now, instead 
of political trials, the Belarusian authorities are using a 
swifter and less tractable tactic of debilitating fines.
    To make things worse, Belarus now appears to be borrowing 
from the Kremlin's authoritarian playbook. The 2018 amendments 
to the law on mass media largely mimic those of the notorious 
Russian law on bloggers by expanding the government authority 
to censor the web, curtailing anonymous internet use, and 
fining freelance journalists. Existing antiextremism measures 
are starting to be used against ordinary internet users as 
well, much like in Russia. The first prison sentence for a 
social media post was handed down this year.
    Moreover, the proposed amendments to the law on countering 
extremism open the possibility of subjective application that 
endangers initiatives promoting Belarusian cultural and 
historical independence. Belarus has finally abolished the 
deplorable criminal code article that prohibited working on 
behalf of unregistered civic groups. However, criminal 
penalties were replaced with administrative fines, and civic 
groups continue having difficulty openly receiving foreign 
funding, including from the U.S. embassy.
    Meanwhile, Belarus appears to be effectively bullied into a 
hasty implementation of the Russia-Belarus Union State 
agreement. Vladimir Putin and Alexander Lukashenko are slated 
to sign the updated integration plan and a series of industry-
specific roadmap documents on December 8th. Why should we be 
concerned? The preparations for the integration process were 
expedited last December as a condition for relief measures for 
Belarus' oil industry and have been shrouded in secrecy.
    Less than 3 weeks out, neither the Belarusian nor Russian 
officials have presented the updated documents, only reassuring 
the public that the first stage of the integration will cover 
just economic policies. Moreover, the Belarusian Ministry of 
Economy refused to release the initial drafts to the public, 
citing concerns for national security and public order. The 
alacrity around the integration process has caused concern 
among Belarusian citizens, as well as political opposition, 
spurring divisive rumors of impending absorption or annexation 
by Russia.
    The Russian Government is already using Belarus' 
partnership to persecute political dissent. In the past 3 years 
at least six Russian nationals were detained or deported by the 
Belarusian officials at the request of the Russian authorities. 
Among them, an activist, a journalist, a blogger, an elections 
expert, and even a world champion in mixed martial arts. The 
most recent case resulted in the activist's arrest for his 
participation in this summer's protests in Moscow. Belarus also 
aided the Russian authorities in arresting a Ukrainian 
national, who has now been sentenced to 6 years on charges of 
promoting terrorism in Russia.
    Belarus will never be truly independent if its government 
continues to play by the Kremlin's rules that disregard the 
human dimension of our mutual security and put the premium on 
the rent-seeking, law-bending behavior of the corrupt elites. 
If the United States wants to help Belarus become more 
resilient, it should do so, first of all, by strongly 
encouraging genuine democratic reform. For example, condition 
any next steps in the U.S.-Belarus engagement on the 
comprehensive electoral reform and the removal of restrictions 
on peaceful civic activity.
    The U.S. could provide experts, technical assistance, and 
conditional funding to help advance change, ensure consistent 
and meaningful participation of the Belarusian civil society as 
an equal party in the Belarus-U.S. human rights and democracy 
dialog, such as providing a critical stakeholder assessment on 
progress and achievements, continue to support U.S. public 
media programming in the languages spoken in Belarus, including 
through the U.S. agency for global media, the RFE/RL [Radio 
Free Europe/Radio Liberty], as well as through independent 
media initiatives.
    Finally, expand foreign assistance for pro-democracy civic 
initiatives while at the same time ensuring that Belarusian 
Government removes regulatory obstacles for receiving such 
funding.
    Thank you, and I look forward to answering your questions.
    Mr. Hastings. Franak, if you would go forward.

  FRANAK VIACORKA, RESEARCH MEDIA ANALYST (CONTRACTOR), U.S. 
                    AGENCY FOR GLOBAL MEDIA

    Mr. Viacorka. Mr. Chairman, members of the commission, 
today I speak in my personal capacity, not as a U.S. Agency for 
Global Media representative.
    So the process of Russification is interdependent with the 
tightening of the antidemocratic regime in Belarus. While 
trying to intensify the relationship with the West and playing 
geopolitical seesaw, the Belarus authorities do not make any 
visible measures to prevent Russian dominance in information 
and cultural space. I couldn't describe better what is Russian 
soft power than Russian General Governor Muravyov from 19th 
century, nicknamed ``Hangman'' for cracking down the 1863 anti-
Russian uprising in Belarus. He said: The Russian bureaucrat, 
the Russian school, and the Russian priest will complete what 
the Russian bayonet could not finish.
    For example, endorsed by Lukashenko, Sputnik propaganda 
network reached unprecedented growth in Belarus. Now it is in 
the top 10 news websites, primarily due to massive support from 
Russian Yandex news and many news aggregators. Russian social 
media services like VK [VKontakte], Odnoklassniki, and Moi.mir 
all belonging to Kremlin-tied Mail.ru, have more than 3 million 
users and prevailed over Facebook and Instagram in Belarus. 
These networks censor critical content about Vladimir Putin 
policies, and predominantly serve as an extension of Russian 
soft power and disinformation machine.
    Unfortunately, there is no resilience to Russian 
disinformation in this society. It targets multiple groups, 
especially young people under 25 years old, born under the 
current regime and raised in the Russian media space, as well 
as seniors nostalgic about the Soviet past without critical 
thinking. They're often targets of weaponized information, 
including entertainment TV shows and explicit anti-Western 
content in social media. Major TV shows from Russia Today 
network are included in their obligatory social package. But 
more critical, Kremlin has established many local news websites 
networks like Vitbich, Sochinfo, and hundreds, hundreds of 
communities, groups, and channels on social media. They are not 
pro-Putin explicitly, rather anti-Western, anti-Polish, anti-
liberal, and, of course, anti-Belarusian.
    In your folders you can find my analysis of Russian social 
media groups, pages, networks, as well as narratives and 
examples of the posts they do in order to change and manipulate 
Belarusian national identity. Many of those pages belong to 
neo-Nazi, pan-Slavic, or ultra-orthodox organizations. Some are 
tied to the Russian Orthodox Church and so-called Cossacks. 
Toxic and aggressive, Cossacks oppose Belarusian liberal and 
pro-Western aspirations, organize provocations, harass pro-
democracy activists on social media, and in real life. Cossacks 
are often referred as Orthodox Taliban.
    It's not a secret that Russian Orthodoxy and Russian 
language are major instruments of Russian universe expansion 
and geopolitical revanchism. Kremlin uses them for political 
pressure too. Although 67 percent of the population declared 
Belarusian their native language, it was eliminated from 
significant parts of public life. In the army, I was punished 
by arrest for speaking in Belarusian language not in Russian. 
Earlier, I was forced to study in the underground because my 
lyceum with instruction in Belarusian was liquidated by 
authorities.
    On the other hand, the viability of the Belarusian language 
is demonstrated by its presence on Wikipedia, digital 
influencers, news media, a vibrant music scene. Still, there is 
a lack of content in Belarusian language, especially for kids. 
Ensuring translation and distribution of films and TV shows in 
Belarusian language, like Netflix content, would be crucial for 
change of its status. It is necessary to overcome the monopoly 
of Russian and local nondemocratic narratives, ensure the 
sustainable presence of the Russian surrogate media--such as 
Radio Free Europe, Belsat TV, European Radio for Belarus, Radio 
Racyja broadcasting from Poland.
    This is the right moment to relaunch Voice of America 
Belarus service, discontinued in 1956. Reopening the U.S. 
embassy could help in building a direct dialog with Belarusian 
people, not authorities, intensify projects on media literacy, 
and digital journalism, as well as exchanges such as digital 
communication network. Russian influence imposes a threat to 
Belarus independence, but hopefully not immediate at the 
moment. It rather facilitates long-term goals to Russify the 
national identity of Belarusians and to prevent any potential 
pro-Western and pro-democracy aspirations.
    Thank you.
    Mr. Hastings. Mr. Williams.

   BRIAN WHITMORE, SENIOR FELLOW AND DIRECTOR OF THE RUSSIA 
                         PROGRAM, CEPA

    Mr. Whitmore. Chairman Hastings, Ranking Member Wilson, 
thank you for the opportunity to join this distinguished panel 
to discuss Russian influence in Belarus, the broader 
relationship between Moscow and Minsk, and the strategic 
implications----
    Mr. Hastings. Is your mic on, Mr. Williams?
    Mr. Whitmore. It should be--ah, there we go. I'll start all 
over again. [Laughs.]
    Chairman Hastings, Ranking Member Wilson, thank you for the 
opportunity to join this distinguished panel to discuss Russian 
influence in Belarus, the broader relationship between Moscow 
and Minsk, and the strategic implications for the United States 
and its allies. It is truly an honor to be here.
    I'd like to use my time before you today to broaden the 
aperture a bit, and to take a look at the importance of Belarus 
for the security of our allies and at the complex and very 
nuanced relationship between Russia and Belarus, and how it is 
changing. And I'd like to begin by stating something that is 
obvious, but which nevertheless merits stressing: Strategically 
speaking, Belarus matters a lot, and it is likely to matter a 
lot more in the very near future.
    Position and behavior of Alexander Lukashenko's 
authoritarian regime, as distasteful as we may find that 
regime, is a key factor in the security balance on NATO's 
eastern flank. Bordering NATO members Latvia, Lithuania, and 
Poland, Belarus looms large in any Russian war plan with the 
West. It would be an essential asset should Moscow seek to seal 
the Suwalki Corridor and cut off the Baltic States from the 
Atlantic alliance. And it could also provide a platform from 
which Russia could threaten Latvia, Lithuania, and Poland.
    Far from being a sideshow, Belarus needs to occupy a 
central place in Western strategic thinking. Now, of course, 
due to his abysmal record on human rights and democracy, it 
would be highly problematic for Lukashenko to be an ally of the 
United States. But at the same time, it is in the interest of 
the United States and its allies that Belarus maintain its 
independence and sovereignty, and that its economic and 
military dependence on Russia be minimized. And therein lies 
the paradox.
    But the relationship between Moscow and Minsk is actually 
much more nuanced than the stereotype suggests. This ostensibly 
close partnership is actually among one of the most 
dysfunctional relationships in the former Soviet space. Belarus 
occupies a central space in Russian strategic thinking and an 
essential part of what Moscow calls its ``strategic depth''--
that is, the existence of dependent satellite buffer states on 
Russia's western border. Vladimir Putin therefore views the 
relationship with Minsk as primarily imperial. He doesn't view 
Belarus as a fully sovereign state, and he seeks to turn 
Belarus into a de facto extension of Russia's western military 
district, at the very least.
    Lukashenko on the other hand, for all his faults, is not 
interested in sacrificing Belarus' sovereignty. And he has 
little to gain from a military standoff with the West in which 
his country would be on the front line. Lukashenko, in 
contrast, views the relationship between Moscow and Minsk as 
purely transactional. He's happy to go through the motions of 
being Russia's ally, as long as Russia pays him for the 
trouble. Belarus' economy is effectively propped up by 
importing heavily subsidized Russian oil and exporting refined 
petroleum products.
    Russia and Belarus are stuck in a strained marriage of 
convenience between two wary partners whose leaders can barely 
hide their disdain for each other. And this is important to 
know: Lukashenko and Putin do not like each other personally. 
On the one hand you have Putin, the would-be emperor. On the 
other hand, you have Lukashenko, the crafty and manipulative 
gamer.
    Now, the founding document of the Belarusian-Russian 
relationship is the 1999 union treaty, which is effectively a 
grand bargain that has defined the relationship ever since. The 
essence of the deal was really simple: Belarus would renounce 
its Euro-Atlantic aspirations, make integration with Russia its 
main foreign policy priority, and act as a buffer state as NATO 
and the European Union enlarged eastward. In exchange, Russia 
would provide subsidized energy, financial assistance, and 
grant privileged access for Belarusian goods on the Russian 
market. It was effectively an exchange of economic assistance 
for geopolitical loyalty.
    But since Russia's aggression in Ukraine in 2014, the grand 
bargain between Moscow and Minsk began to break down. Russia's 
aggression in Ukraine have led to fears on the part of 
Lukashenko that much--and much of the Belarusian elite that the 
country's fragile sovereignty could be in jeopardy.
    And Russia, meanwhile, facing sanctions and a flailing 
economy, has scaled back its subsidies and economic assistance 
to Belarus. Moscow has also in this period sought to pressure 
Belarus into hosting a new Russian military base on its 
territory, integrating the country's armed forces more deeply 
and accepting a revived integration project that would 
effectively end Belarus' sovereignty.
    As Lukashenko resisted these efforts--and he has resisted 
these efforts--Moscow began sending not-so-subtle hints. In 
2016, for example, Russia began deploying mechanized military 
units near the Belarusian border. Now, Lukashenko's reacted by 
flirting with the West, seeking closer ties, courting a 
relationship with China, and by attempting to develop a high-
tech sector to decrease economic dependence on Russia. At the 
same time, he has remained nominally open to Moscow's proposals 
for deeper economic integration and the Belarusian ruling elite 
remains divided between pro-Russian and pro-independence wings. 
And there's more on that in my written testimony.
    Lukashenko and Putin are scheduled to discuss a Russian-
supported plan for deeper integration in December, and Belarus 
is planning to hold Presidential elections next August, which 
could open the door for greater Russian meddling. There's also 
indications that Russia's military intelligence, the GRU, and 
its foreign intelligence service, the SVR, are alarmed by 
Lukashenko's efforts to preserve Belarus' independence by 
attempting to move it closer to the West, as tentative as these 
moves may be.
    Now, given the centrality of Belarus to Russia's perceived 
security interest, and nobody more than--except for Ukraine 
looms as large in Russia's security interest as Belarus--Moscow 
will likely view Belarus as a zero-sum game and will be willing 
to take risks to maintain it as a client state. Russia will 
most likely continue to pressure the Lukashenko regime into 
deeper economic and military integration. But if that fails, we 
cannot rule out that the Kremlin could attempt regime change or 
even a military solution to keep Belarus in its sphere of 
influence.
    Given the high priority that Moscow places on keeping Minsk 
as a client, Russia clearly has escalation dominance in 
Belarus. But this does not mean that the United States and its 
allies are helpless. We can take steps to make sure Belarus--to 
assure that Belarus becomes less dependent on Russia 
economically, such as helping it develop its fledgling high-
tech sector. This would have the added benefit of changing the 
political environment and changing the political economy in 
Belarus, and potentially laying the groundwork for a more 
pluralistic political system in the future.
    We can also, as my colleague said, intensify our work with 
civil society and media, which would shore up Belarus' sense of 
nationhood in the face of a Russian disinformation campaign 
that Belarus is not an actual nation, and make the country more 
indigestible in the event of eventual Russian aggression.
    And finally, we could send a clear and unambiguous signal 
to Moscow that any forceful effort to violate Belarus' 
sovereignty would incur costs, including but not limited to 
additional sanctions. As distasteful as we may find Lukashenko, 
we do regard Belarus' sovereignty as sacrosanct, and that 
message needs to be sent to Moscow.
    Thank you very much for your attention and I'll be happy to 
answer your questions.
    Mr. Hastings. Thank you, Mr. Williams. What we will do is 
alternate between Mr. Wilson and myself. And rather than 
specify when we put questions, any of you or all of you dive 
in. It will be appreciated.
    What we've heard from you today is both sobering and all 
too familiar. The Kremlin, which has engaged in hybrid warfare 
to promote its disruptive agenda, in a number of sovereign 
states along the borders, now has its sights on Belarus and has 
had for a protracted period of time. We know that Kremlin 
playbook when it comes to disinformation and malign influence. 
But it would be helpful to understand more specifically the 
tactics Russia is using to promote its agenda of a Russia-
Belarus union. Is Belarusian society able to resist these 
efforts? And to the extent that you can, identify who is 
winning this struggle for the hearts and minds of the 
Belarusian people.
    Mr. Yeliseyeu. For the two last decades Lukashenko 
essentially traded geopolitical loyalty and military 
cooperation with Russia for Russian generosity--lower gas 
prices, beneficial oil processing schemes, an open market for 
Belarusian goods, and other tools of financial assistance 
allowed Lukashenko to keep largely unreformed Belarusian 
economy afloat. Now Russia uses this economic leverage, you 
know, to condition further economic assistance with deeper 
integration. It uses propagandistic pressure too, with the aim 
to create an illusion that a large part of Belarusian 
population actually support this radically deep integration 
with Russia.
    I will give you one example. Representative sociological 
surveys show that just a few percent of the Belarusian 
population, you know, support joining Russia. But what Russian 
propaganda actors do in social media, they organize polls that 
show, you know, a much higher figure, like over 30 percent for 
instance. Of course, these polls are not representative. 
Anyone, you know, can launch this poll in a given social media 
page and everyone can vote, and trolls and bots, you know, can 
contribute to the poll results. So but later on these results, 
published by a range of websites, you know, creating this 
illusion of big, you know, numbers of population in favor of 
losing sovereignty or radical deep integration with Russia. So 
this is an important tactic that is used by propaganda actors 
in the media sphere.
    When it comes to civil society, well, it does its best but, 
of course, the conditions are very uneven. I mean, a 
centralized state machine versus civil society under domestic 
pressure and with a lack of external support. So a younger 
generation of media activists, since independent media, they 
need a larger arena for action. They need a less oppressive 
environment inside the country, and larger support to continue 
what they're doing nowadays.
    Mr. Hastings. Is there a fear among Belarusians that their 
country may suffer the similar fate of Ukraine if Putin chooses 
to--or, Lukashenko chooses to pursue closer ties with either 
the U.S., or the EU, or Western countries? Is that fear 
pervasive in Belarus?
    Mr. Viacorka. I can begin answering this question, because 
it's very--it's very difficult. So first of all, Ukraine was 
very inspirational to all of us. Many Belarusians--young 
Belarusians came to Kyiv to protest for democracy and freedom. 
Some of them died, were shot at the Maidan in the downtown 
Kyiv. And these protests, and even this war now in Ukraine, 
it's also war for Belarus--for its identity, for its future, 
for its democratic aspirations as well.
    So after 2014, Belarusians are following Ukrainian events 
very closely. All the political changes, all the events in the 
southeastern Ukraine, occupation of Crimea. Sometimes inspired 
people, sometimes scared people. Of course, nobody wants war. 
But Belarus is not Ukraine. There is a very different 
historical background. Belarus is much more unified in sense of 
ethnicity than Ukraine. We have only 8.2 percent of Russian 
ethnic populations, so compared to Ukraine, where Russians were 
predominant ethnic group in southeastern part of Ukraine. So 
for Russians it's very difficult to say that you have to join 
Russia because you are Russians. They are not Russians. Yes, 
they speak Russian, but it doesn't mean they are Russians.
    So I think this is why Russia is trying to build another 
story, another tactic and strategy toward Belarus. They are 
trying to play with its Orthodoxy and Russian language. And 
they say: Since you are Russian Orthodox, you are Russians. 
Since you are Russian speakers, you are Russian. And we will 
come to protect you. Lukashenko is always playing seesaw. So 
he's trying to be with the West--we would joke that in summer 
Lukashenko is pro-Western, in winter he is pro-Russian. And I 
think even Belarusians understand this game, so nobody really 
believes what he says because usually it's more the show, it's 
more the comedy. So it's more--Lukashenko became a meme for a 
young generation.
    More important is to see what's happening. And we see that 
Lukashenko and authorities are closing their eyes on the 
developments inside of the society, on the development of this 
pro-Russian network, of this Russian party. It's not the party, 
as we used to know political parties. It's like a deep state. 
It's like a hidden organization. It's something which exists in 
practically all spheres of life, in every region, in every 
city. It unifies officials, military people, activists. And 
neither Lukashenko nor civil society today cannot resist, 
cannot counter efficiently this Russian increasing dominance.
    Mr. Hastings. Mr. Williams.
    Mr. Whitmore. Yes, in answer to your question I recall a 
conversation I had with a Belarusian opposition figure back in 
2014. And he said: Look at the conundrum we're in right now. 
Imagine we pull off the impossible. Imagine we overthrow this 
dictator. Imagine we overcome this police state. What do you 
think's going to be happening next? Well, then we're going to 
have to face another dictator. And this kind of changed the 
political dynamic. And correct me if I'm wrong, this is the 
impression I was getting from Belarusians I was talking to, 
this kind of changed the dynamic within the country where the 
opposition began to make peace with Lukashenko because we want 
our sovereignty today. We can fight for democracy tomorrow. I 
think this was kind of a calculation that was made in the minds 
of a lot of people.
    There was also suspicion that some people who claim to be 
opposition are actually Russian agents that are--that would be 
used to increase Kremlin influence. So the dynamic changed 
dramatically after 2014. And it makes it a lot more complicated 
right now. Again, we have this paradox, where Lukashenko has 
positioned himself as the last, greatest defender of Belarusian 
sovereignty, while we in the West find this regime distasteful. 
And what can we do in this situation? It's--I don't have an 
easy answer. I wish I did.
    Mr. Hastings. Ms. Orlosky, you were getting ready to say 
something?
    Ms. Orlosky. I think it's important to note that even 
though citizens are concerned, we haven't seen much visible 
action to counteract these attempts. There is a civic 
initiative that was started this year called Svezhii Veter that 
attempts to assemble a critical mass of citizens who are 
concerned about specifically the expedited Union State 
negotiations. Several political candidates ahead of the 
parliamentary elections have put the item on their agenda and 
have voiced it out during the public gatherings.
    Mr. Hastings. But nobody in the opposition won, did they?
    Ms. Orlosky. But, exactly.
    Mr. Hastings. I didn't mean to cut you off, but I just----
    Ms. Orlosky. But you made my point.
    Mr. Hastings. Oh, okay. [Laughter.]
    Mr. Wilson.
    Mr. Wilson. Thank you very much Mr. Chairman. And Mr. 
Yeliseyeu, your being here, your existence, is a dream come 
true to me. I supported a person of Polish heritage, Barry 
Goldwater, to run for president. My first visit to Washington 
was for the national ``Draft Goldwater'' rally July the 4th, 
1963. And so my whole life was really focused, as a teenager 
on, to hopefully the liberation of Central and Eastern Europe. 
I have a book behind my desk by Barry Goldwater, it cost all of 
75 cents, and it was, ``Why Not Victory?'' What it meant was 
the liberation of Central and Eastern Europe, you. And so I'm 
just so excited to be here with you.
    And what a wonderful model--our family went a step further. 
My oldest son married a person of Polish heritage, Jennifer 
Miskowitz, obviously Polish. And she was the newscaster of the 
largest television station in South Carolina. And so he's done 
quite well because of her and her association with Poland. And 
what a message to Belarus. Poland can point out that they've 
had twenty-five years of positive economic growth. The only 
country in Europe that had had--that can point to that. So what 
an example.
    And then, Ms. Orlosky, you and I share the heritage of 
working with sister organizations, okay? National Democrat[ic] 
Institute, International Republican Institute. And I had the 
opportunity to be an election observer June the 10th, 1990, in 
Bulgaria. And it was startling, the comparison. Before I went, 
everything I read, the people in Bulgaria through pan-Slavism 
were just really enthusiastic about being part of the Soviet 
empire that they didn't want to be just a Soviet satellite, 
they really wanted to be a Soviet Republic. I got there, nobody 
felt that way. Also when I got there, I felt like I was 
stepping back in the 1930s. It was pathetic. And the lifestyle 
was just so anemic. And now I've gone back every 2 or 3 years, 
and how exciting to see the progress of that country. And now a 
member of NATO, the European Union, a very dynamic country.
    I was honored to be with Prime Minister Boyko Borissov for 
my birthday 2 years ago. And I found out that, Mr. Chairman, 
Bulgarian wines are very good. So I----
    Mr. Hastings. Yes, I know Solomon Passy, and so that speaks 
for itself.
    Mr. Wilson. That's right. Hey, we have shared friends in 
Bulgaria, the former foreign minister. And so many--but, again, 
great examples for Belarus of success, as opposed to what 
apparently is going on. So again, I'm just grateful to be here 
with you.
    And, Ms. Orlosky, given the current authoritarian regime in 
Minsk, what can the U.S. hopefully do to bolster a civil 
society in Belarus and to preserve its--the Belarus 
sovereignty? How can the Congress help in this effort?
    Ms. Orlosky. Thank you for your question. Over the last 
decade we have seen certain efforts put in place to support 
civil society initiatives. And there is foreign assistance 
available for civic groups, but unfortunately we can't say that 
it's sufficient. Your counterparts in the European Union are 
doing everything they can to provide foreign funding as well.
    However, for as long as Belarusian civic groups continue to 
operate in the environment where they have to register their 
foreign funding and essentially apply for permission to receive 
a grant, where they have to register as an organization where 
they are placed under so many restrictions that compliance, so 
to speak, becomes a time-consuming endeavor as opposed to 
implementing the necessary initiatives to build a stronger 
awareness, to support youth, to support independent media, the 
efforts to provide funding are going to be met with challenges.
    And most recent example, just a week ago we learned that a 
civic initiative in Belarus that was hoping to develop a 
program that encourages people to participate in public 
discussions of laws and bills received a small grant from the 
U.S. embassy--or, was awarded a small grant, which is under 
$25,000. And they received denials from three different 
ministries to register that grant, which usually means that any 
other attempts will be met with the same fate. So what kind of 
assistance can we be talking about if these restrictions 
continue to exist? I think it's important to pair assistance 
efforts with bilateral engagement with the government to remove 
the obstacles for civil society to receive that assistance. I 
think this is absolutely crucial.
    Mr. Wilson. Thank you. And in fact, again, lighting does 
strike, bipartisan cooperation here, all right? So we'll be 
working together to back that up.
    And Mr. Whitmore, I'm really grateful of your lecturing. 
You've lectured in Odessa, Ukraine, and St. Petersburg, Russia, 
and my hometown of Columbia, South Carolina. So we like the 
association with St. Petersburg and Odessa. So thank you for 
your lecturing.
    And with that, it's been spoken there's a generational 
change potential in Belarus. And how do you identify this? And 
would the young people of that country want to associate with 
the world of Vladimir Putin or Western civilization?
    Mr. Whitmore. Well, we're witnessing the first generation 
that only knows life in an independent Belarus is now coming of 
age. And I think we have to capitalize on that opportunity. 
They're not going to be as susceptible to the appeals to Soviet 
nostalgia. And I think there are concrete things we can do. And 
as my colleagues have noted, working with civil society and 
seizing this moment. But I really think we need to invest in 
this high-tech sector to facilitate the development of Belarus' 
high-tech sector. Because in a lot of ways Russia's given us a 
wonderful opportunity right now.
    Between 2000 and 2015 Russian subsidies accounted for, on 
average, 15 percent of Belarus' GDP. They've been cut since 
2015. And now they account for approximately 5 percent, 
according to IMF data. Now, this means that Russia is leaving 
this gap that needs to be filled in the Belarusian economy. And 
it can only be filled by the private sector--or, we would hope 
that it would be filled by the private sector. And that would 
change the entire political economy, entire political dynamic.
    Mr. Hastings. How inviting is investing in the high tech--
--
    Mr. Whitmore. Well, the authorities are saying they want 
investment in high tech. They are sending delegations to 
Silicon Valley. They are giving nominal tax relief and tax 
incentives for this. So they're acting like they want this.
    Now, I don't know if they understand the full political 
implications of this, because if you develop a vibrant 
Belarusian high-tech sector, that is going to change the 
political economy of Belarus and change the political dynamics 
and I would argue, over the long term, lay the foundation for a 
more pluralist political system. So I think this is one of the 
ways that we can engage this new generation.
    Mr. Wilson. And I'm hopeful like you. I had the opportunity 
to meet with a delegation of business leaders from Belarus in 
North Augusta, South Carolina, where they were meeting with 
industry leaders. And so I'm hopeful. I now yield back.
    Mr. Hastings. Thank you. And I--this is an unusual 
question--but I like children. And I have two granddaughters, 
nine and eight. And quite frankly, they are about the most 
important thing to me going at this point, to keep me going. 
But what is the status of primary education, elementary 
education, high school? How does that look in Belarus?
    Mr. Viacorka. Thank you for this question. So education is 
also the field of battle, I would say, between Russian or 
imperialist ideology. But it doesn't start, of course, in 
kindergarten, but in the high school and during all the history 
lessons we really see the change of the narrative. When the 
schoolbooks printed in 1990s, before Lukashenko came to power 
and Russia built strong presence in Belarusian information 
space, kids were taught true Belarusian history about our great 
past, about our good times and bad times, about our unions and 
our wars, about our connections with Lithuania and Poland and 
Ukraine.
    Now we see that the new schoolbooks are printed with the 
support of Rossotrudnichestvo and other Russian-funded 
foundations. And they already push another narrative. So we see 
different types of heroes for these young people. And this 
clash of two narratives, it happens in the school classrooms. 
We also lack schoolbooks and content for kids in Belarusian 
language. Basically we all discussed, like, last year Masha and 
the Bear role. You know that Masha and the Bear is the third-
most popular video on YouTube ever after Gangnam Style and 
Despacito. [Laughter.]
    Ms. Orlosky. It's on Netflix.
    Mr. Viacorka. And it's on Netflix too.
    Ms. Orlosky. In English.
    Mr. Viacorka. In English. No, but Masha and the Bear is in 
every school, and every university, and every kindergarten, and 
every embassy, on every office of Russian cultural center. And 
kids are getting used to Russian content. They don't have 
Belarusian content. They don't have Western content translated 
into Belarusian language. So they exposed and they are 
connected to these heroes, to these cartoony personages from 
the very, very young age. So my proposal is also to intensify 
not just investment in the tech sector, but also investments in 
the exporting mass culture, entertainment content, 
infotainment, education content from the U.S. to Belarus, and 
translate it into Belarusian language.
    Mr. Hastings. I thank you for that. Also a few years back, 
maybe 3 or 4 years, one of the United States big networks, it 
was either ABC or CBS, tracked the military exercise that 
Russia conducted. And it was huge. Mr. Whitmore, I apologize 
for calling you Mr. Williams. But these eyes without glasses 
aren't the best in the world. [Laughter.] But do they conduct--
meaning Russia--do they conduct this military exercise annually 
or is this an anomaly that I saw on television?
    Mr. Whitmore. Well, the Zapad military exercises are 
conducted regularly, not annually. But the regional exercises 
rotate. You have Yug, which is the southern. You have Kavkaz, 
which is the Caucasus. You have Zapad which is the west. But 
they're conducted regularly. But the last Zapad military 
exercises between Russia and Belarus were notable for, I 
thought, how much discord there was between the Belarusian and 
the Russian authorities. The Belarus in the runup to those 
exercises was going out of its way to assure Belarus' neighbors 
that nothing aggressive was going to happen toward them. I was 
in Lithuania at the time of these exercises, and the Lithuanian 
foreign minister told me that Belarus has reached out and has, 
you know, been bending over backward to assure this.
    Russia, on the other hand, wanted to use those exercises as 
a massive PSYOP, that they might be used as some pretext for an 
attack. So there was this discord between the Belarusian and 
the Russian authorities. I heard information at the time, which 
I have not been able to confirm but that I heard, that 
Lukashenko was being iced out of the military decisionmaking 
and had convened an emergency meeting with his closest advisors 
because he was worried about what might happen. And I thought 
it was telling that at the end of the exercises the Russian 
officers did not stay for the ceremonial dinner, and instead 
went back to Moscow.
    So there was--those exercises, I thought, pointed out as 
much of the discord in the Russian-Belarusian relationship as 
the--as the unity. I would point out there are currently no 
Russian bases on Belarusian territory. There are military 
facilities, but not full-fledged bases.
    Not full-fledged bases. And that Russia is pressuring 
Belarus now into effectively integrating the Belarusian command 
with the Russian command, along the lines of what they did in 
the Russian-occupied areas of Georgia, South Ossetia and 
Abkhazia. Again, Belarus is resisting this.
    And, again this puts us in this conundrum that I spoke of 
earlier, this paradox, of this regime we find distasteful, that 
will never be our ally, but yet we want to preserve Belarusian 
sovereignty and we want to assure that Belarus is not 
militarily integrated with Russia, because that I think is a 
security nightmare. It brings Russian power right up to the 
border of our allies.
    Mr. Hastings. Okay. Mr. Wilson.
    Mr. Viacorka. I would say that----
    Mr. Hastings. Go right ahead.
    Mr. Viacorka. Let me add a few words. So perhaps there are 
not traditional military bases, but unfortunately our air 
defense system is part of the union defense system. I used to 
be a soldier in compulsory military service in Belarus. And I 
was reporting about all the flights flying from the west and 
from the south, from everywhere, because we had enemies 
everywhere. And we reported both to Minsk, to Baranovichi, and 
to Russian side. So I think the same scheme, the same operation 
is working now. So basically we don't have sovereign air 
defense in Belarus.
    And within the Army there is no Belarusian narrative, there 
is no Belarusian ideology. It's still very Soviet, very 
Russian. We still were taught in military units that our main 
enemy is NATO. And we were trained, and we can be waken up in 
the middle of the night and asked the parameters of F-15 
warplane, because we were taught that every day, perhaps 
tomorrow morning, NATO is going to attack us. And this is the 
way how soldiers, 40,000 soldiers in Belarus, are trained now. 
They are trained to fight against the West. And this is my 
concern.
    Mr. Wilson. Thank you, Mr. Chairman. And Mr. Yeliseyeu, 
with your Belarusian background, to what extent is Belarusian 
cultural identity, including language, being promoted in 
Belarus? And are there any successful movements within Belarus 
to reclaim a pre-Soviet Belarusian heritage?
    Mr. Yeliseyeu. Well, as Franak already said, Belarusian 
language is under pressure. In Belarus, if we look at the 
numbers of the pupils who are taught in Belarusian, who study 
at schools with Belarusian language as the language of 
instruction, then we see that in 1994 the figure was over 40 
percent. Last year, it was about just 10 percent. So we can see 
a fundamental, you know, decrease in the number of pupils who 
are taught in Belarusian.
    Nevertheless, recently we can see that there's a number of 
civic initiatives which do their best to promote Belarusian 
language and culture because, you know, Belarusian history and 
culture are under attack of massive Russian propaganda. They 
even attempt to create some sort of common history textbook. 
This is of course a big threat, because already nowadays, as 
Franak said, pupils are taught some conflicting narratives 
which do not fully correspond to the Belarusian history.
    So there's a concern that if this anti-Belarusian language 
state policy continues then this will weaken the Belarusian 
identity, and hence the resilience of Belarusian society will 
be weakened. So it's very important, you know, to bear in mind 
that these initiatives which promote Belarusian language and 
culture are very important. They are a cornerstone of the 
Belarusian and resilient society.
    Mr. Wilson. Well, thank you for your efforts. And Mr. 
Viacorka, you've identified that there's different levels of 
tension between the Putin regime and Belarus. What more are 
there? And are they growing? Or what's the status of tension 
and disagreement?
    Mr. Viacorka. Thank you for that question, Mr. Wilson.
    I think Putin honestly doesn't like Lukashenko. They always 
have problems and communicate in messages. So they don't trust 
each other, as often happens between dictators and 
authoritarian leaders. This week we see the preparation of the 
meeting on December 8th, when a wide range of treaties and 
agreements must be signed by Belarus and Russian authorities. 
And we see that we--and one document about this meeting was 
leaked yesterday to social media, to Telegram channels. And in 
these documents we can see that Russia is forcing Belarus 
authorities to sign all the documents and all the treaties 
according to the rules and in favor of Russian interest. So 
what Russia is trying to do--they are trying to use their 
political power, their military dominance, their economical 
dominance in Belarus, in order to force Lukashenko authorities 
to accept all the conditions they want.
    So in more metaphorical sense I would say they have the 
leash, and they always play with the size of the leash. So they 
know that Lukashenko is under control. They know that 
Belarusian economy and politics and military sphere is under 
control of Kremlin. And what they do sometimes is they give 
more space to Lukashenko to play his own card, sometimes 
lesser. But I hope that it will not be forever like this. I 
also hope that there is a new generation of officials within 
Lukashenko's regime who see Belarus as independent, free, and 
pro-European, and these people also influence Lukashenko's 
policy in the direction of opening the country to the West.
    Mr. Wilson. Yes, Mr. Whitmore.
    Mr. Whitmore. I mean, you'll see things--you'll see 
incidents of tension rising to the surface kind of in a very 
open way, and then you see what the Russians call the battle 
under the carpet, right? Lukashenko gave a very famous 
interview back in 2015, I believe it was, where he was 
ridiculing Russia's historic claims to Crimea, saying by using 
the same logic Mongolia could claim Russia. [Laughs.] And so 
this--I mean, this is a very kind of manifest example of this. 
Lukashenko's comments that Belarus does not want to be part of 
the Russian world, his very insincere efforts to promote the 
Belarusian efforts right now--because he is making verbal 
commitments to the Belarusian language although I don't see a 
lot of action.
    But then you see a lot of stuff below the surface going on. 
The Belarusian Interior Minister Ihar Shunevich was recently 
dismissed. Now, there are different interpretations of why this 
happened. Mr. Shunevich was the most pro-Moscow figure in the 
Belarusian elite. And dismissing him I think was a--did have 
kind of political overtones, although there were rumors he was 
sick. I don't know if that was true or not, or if he wanted to 
spend more time with his family, although he is rumored to be 
in Moscow now.
    You'll see other things, such as the former Russian 
ambassador Mikhail Babich, who was appointed in August 2018 but 
resigned abruptly in April 2019. Now, he was meeting regularly 
with Belarusian security officials, and he was seen as kind of 
one of Putin's enforcers, if you will. He was used in Chechnya, 
in Tatarstan, in Bashkortostan, and other Russian regions.
    Now, his removal coincided with the arrest of a security 
official named Andrei Vtyurin, who officially was arrested for 
bribery but there were rumors he was meeting with Babich and 
was suspected of being party to a coup--a potential coup. We 
don't know if this is true. Again, this is what I'm told by my 
sources in Minsk.
    You see a Russian campaign against the sitting Foreign 
Minister Vladimir Makei, who is by far the most pro-
independence-minded official in Lukashenko's inner circle. So 
there's all of these little manifestations of this around in 
terms of personnel moves, in terms of ambassadorial 
appointments. And then you can see them as well in Lukashenko's 
statements. This doesn't mean a break is about to happen. It 
means there's tension and there's turbulence in the 
relationship. And it's something we should keep our eye on and 
potentially exploit, if we can.
    Mr. Wilson. Well, hey, as I conclude, I want to thank each 
of you for your efforts on behalf of the Belarusian people, and 
their freedom, and their continued independence. And then I 
actually--I've never visited Minsk, but I look forward to going 
with the chairman sometime and we'll visit. But I have been 
across Russia. And I'm still hopeful for that country. I've 
been from St. Petersburg to Novosibirsk. And the Russian 
people, to me, were extraordinary. It's sad to me 
authoritarianism has taken over. But we need to be encouraging 
the people of Russia too to follow the Polish example, and 
Bulgarian.
    I yield back. Thank you.
    Mr. Hastings. All right. Mr. Yeliseyeu, you mentioned a 
media group earlier. What impact has that had? Is it negative 
or positive? And how were they received? You held up a piece of 
paper that----
    Mr. Yeliseyeu. Thank you. You mean the declaration I had 
mentioned, right?
    Mr. Hastings. Yes.
    Mr. Yeliseyeu. Right. so all the major Belarus media actors 
acknowledge this problem that I mentioned, that's--you know, 
this automatically generated news services are increasingly 
popular among the people. So people do not go to specific 
websites. They usually just use these systems to get news. And 
because there's no functional geotargeting for Belarus in, say, 
Google News, in Apple services, then people instead of getting 
media products done by Belarusian media, they get most of the 
media content from Russian media. So this is a big problem. 
It's--you know, it plays in favor of Russian media rather than 
Belarusian state and independent media, because this way they 
lose their audience plus Belarusian population gets the 
information not from the national media outlets, but from 
Russian ones.
    So this declaration was met with a big interest and 
enthusiasm by Belarus media actors. And they, and the expat 
community, and the state authorities, I believe, we all hope 
that soon these Western global corporations, they turn their 
eye on this problem, and they recognize Belarus as a distinct 
media market. And this way, we'll solve this problem and put 
Belarus media community in the same conditions that Ukrainian, 
Polish, Lithuanian and Latvian media communities are.
    Mr. Hastings. I want to ask you, what is the likelihood 
that an 18- or 19-year-old, or someone between 17 and 25 will 
see the demonstrations that are going on elsewhere in the 
world, through media? Do they get to see what's happening in 
Hong Kong, and Chile, and Iran, and Venezuela? What's the 
likelihood of them seeing that, with the clamp that seems to be 
exercised against the media?
    Mr. Viacorka. Mr. Chairman, that's a wonderful question 
because actually protests around the world--in Venezuela, in 
Hong Kong, earlier in Turkey, even events in Iran, when the 
internet shutdown happened just a few days ago--actually these 
events are very inspiring and inspirational to Belarusian 
youth, and Belarusian civil society, and regional 
organizations. We have several very popular communities and 
channels on social media, especially on Telegram, talking and 
informing only about protests worldwide. And I am very happy to 
see how this young, nonviolent activists, protestors learn from 
each other.
    For example, the Hong Kong protests, they started to use 
P2P technology. When the internet is shut down, which is often 
happening in all authoritarian countries and sometimes happens 
in Belarus too, they manage to organize thanks to mobile phones 
the connectivity without being connected to the internet. They 
exchange files, videos, and texts. And I hope that in case the 
internet will be shut down in Belarus or in Russia, that these 
activists will use the experience of the Iranian and Hong Kong 
activists in order to keep going and to keep their aspirations 
on the very high level.
    So regarding young people, young people today in Belarus, 
they're exposed to Russian disinformation, propaganda. You 
know, as I mentioned in the beginning, this very, very crazy 
messages. For example, in the first I saw this picture on 
almost, like, 1,000 pages on VKontakte. That's world map 2020--
2030. And we see big Russia. We'll see European Union map, 
which is called ``LGBT Caliphate.'' We see United States and 
Canada together as one country. It's the ``Great Desert of 
Tolerance.'' All of South America is Venezuela. And Australia 
is this--the ``Space Station Yuzhny [Southern].'' [Laughter.]
    So this is actually new exaggerated Russian vision of the 
world. And this is what they want, you know. And of course, for 
young people who became a consumer and user of such crazy 
propaganda, this new Russian revanchism becomes very attractive 
because they begin believing that you can change that map, you 
can conquer enemies, you can unify America, United States, 
Mexico, and Canada, in one state and make the desert of all 
those three countries. So unfortunately, it works. But what we 
have to do, we have to build positive alternative.
    It's impossible to counter fake news. It's a big mistake to 
believe that only factchecking and the traditional journalism 
can win alone. No. It's a digital space. New rules. New 
competition. Instead of large and powerful, Russia used small 
and many. In 2013/14 they created Russia Today and Sputnik. Now 
they created thousands of small Facebook, Instagram, VKontakte-
based pages and channels because it's much more efficient. It 
targets smaller groups separately, but if we will see the whole 
picture all together they target, and they reach much more 
people aggregated.
    So this is the way. And we have to realize it, to admit 
this fact, and to be smarter, to be faster, to be more 
efficient, and to embrace technology. Because technology is the 
instrument. Technology is the solution, how to prevent Russia 
from dominance in Belarus and in the region.
    Mr. Hastings. Go ahead, Mr. Wilson.
    Mr. Wilson. One final comment from me. I have had the 
opportunity to visit Latvia and Lithuania. While they're next-
door neighbors, what extraordinary societies they've developed 
so quickly right next door. So what a great example to have 
right next door, and particularly for the young people but for 
everyone in the country.
    Thank you very much.
    Mr. Hastings. Thank you, Joe.
    Ms. Orlosky, you spoke about leveraging, to the extent that 
we can. The United States and Belarus have not exchanged 
ambassadors for decades. And yet in 2019 Lukashenko kind of 
sent a signal that maybe they would be ready to do that. Do 
you, any of you, support that effort? Or how best might it be 
implemented? And what can we get for that kind of recognition?
    Ms. Orlosky. Thank you. In my view the withdrawal of 
ambassadors back in the day primarily impacted the people of 
Belarus and of the United States, because it removed a very 
important cultural diplomatic link between the two nations. 
And, you know, the easiest manifestation was the difficulty 
with which Belarusian citizens had to receive U.S. visas, the 
length of wait for appointments, the lack of cultural exchange 
opportunities, and things like that.
    So I think that the return of ambassadors to both countries 
is a good step. But I think the first priority should be a 
reinstating cultural diplomacy relations. The peer-to-peer 
relations, the programs that show that it is not about 
necessarily the governments and the states but it is about the 
people of two countries and the goodwill of the people from the 
United States and Belarus toward each other.
    Mr. Hastings. Mr. Whitmore, you were going to say 
something.
    Mr. Whitmore. Yes, no, I would concur with what Sofya said. 
And I would say, I mean, we got to be there. But I also think 
we got to send our ``A'' team there to engage with the 
Belarusian people. And I would also concur that I would step it 
up with track two diplomacy, because that's what's really going 
to make the difference in a long run in developing a more 
pluralistic society. And I wanted to just add a little bit to 
what Franak was saying about the narratives, because I think it 
is crucial that we help Belarus develop positive narratives, 
whether we're talking about language, or whether we're talking 
about history.
    Belarus was part of the Polish-Lithuanian Commonwealth. 
This was the largest state in Europe. And it links Belarus to 
Europe and not to Russia. And I think there's a usable history 
here. And I think we have to help the Belarusian civil society. 
And I think they're doing a good job of it themselves, but I 
think we need to help them amplify these positive narratives to 
counter the Russian disinformation.
    Mr. Hastings. So let me give you all the last word, and 
anything that you want as a takeaway for us, starting with you, 
Franak, since you were about to say something regarding what 
Mr. Whitmore was saying.
    Mr. Viacorka. Thank you, Mr. Chairman, for this opportunity 
and for the hearing today.
    So about the narrative. You know, I wanted to show you two 
Belarusian heroes. So one is Tadeusz Kosciuszko, who is also 
the hero of the United States and Poland, who actually 
contributed a lot in building United States military forces. 
But Kosciuszko is also the person who organized the first big 
uprising against Russian power in 1794. And now these pro-
Russian narratives in Belarus on social media, they try to 
destroy and to say that he's Polish, that he's anti-Belarusian, 
he's anti-Orthodox.
    And another person is very important. And he's perhaps the 
hero Number 1 in Belarus, Kastus Kalinouski. He's a common hero 
for Belarus, Ukraine, Lithuania, and Poland. And 1 year ago his 
remains--his bones were found in Vilnius, capital of Lithuania. 
And in 2 days, there will be a ceremony of reburial of his 
bones. And thousands of Poles, Belarusians, Ukrainians will 
come to Vilnius.
    And that's a very good sign that still we have symbols, we 
have common values that can unify our countries in Central and 
Eastern Europe. And I think building coalition between Poland, 
Belarus, Lithuania, Ukraine, also Czech Republic, Slovakia, 
that's essential in order to prevent Russian influence. Because 
they are winning when we are separated, when we are divided. It 
will be together, it will be working together in politics, in 
economy, in military, in culture, in media space, then we will 
be winning.
    And I also would like to say and to answer the question how 
the U.S. can else help. So it's very important to include 
Belarus into all programs related to Russian disinformation, to 
monitoring of Russian influences in the region. Some programs 
are managed and coordinated by Global Engagement Center, but 
USAID. Projects like iSANS and their report, that's a fantastic 
tool and amazing data that can help not only Belarus but all 
the countries in the region to prevent potential Russian 
interference.
    Also, I believe that the projects and the initiatives, like 
Belarus Democracy Act, was one of the most successful of its 
time. And perhaps it can be updated somehow, because the main 
idea of Belarus Democracy Act was to help Belarusian society. 
And we need it as never before. So now we have a bit more space 
for Belarusian civil society. The government do not arrest us 
on daily basis. But let's use this moment, this window of 
opportunity so much as possible.
    Thank you.
    Mr. Hastings. All right. Mr. Wilson had something else.
    Mr. Wilson. And, Mr. Viacorka, thank you for referencing 
Slovakia. That's another example for the people of Belarus. I 
have been to Bratislava. I've been across the heart of Europe. 
That's what Slovakia claims. A brand-new country, one that was 
never imagined to exist. But it does. And it's a dynamic 
democracy. And there's so many positive examples for the people 
of Belarus. And I want to thank you for, again, working and 
promoting freedom and democracy in Belarus.
    Thank you.
    Mr. Hastings. Mr. Yeliseyeu.
    Mr. Yeliseyeu. Thank you. I'd like to give a couple of 
interesting figures to conclude. Two days ago there was a 
sociological survey in the six Eastern Partnership countries 
commissioned by the EU. So the survey showed that the share of 
positively disposed people to the EU is the lowest among 
Belarusians, 35 percent. But the situation is not as gloomy as 
it may seem because, in fact, merely 6 percent of the 
Belarusians have negative feeling to the EU. So more than 
half--over 50 percent of the population--have a neutral feeling 
to the EU, which shows us there's a big potential to enhance 
the EU image.
    But at the same time, almost 80 percent of Belarusians, the 
same survey shows, declare that the information that they 
reach, watch, or access online do not help them to have a 
better understanding of the EU. Compare this with just 20 
percent of Armenians. So we can see that there's a huge 
potential, you know, to enhance the image of the West among the 
Belarusians. But at the same time, because of the constrained 
environment for the media, people are just not aware. And they 
acknowledge that they do not have sufficient information.
    Mr. Hastings. It brings up the point that you all raised 
about Voice of America. I have been, as a person and a 
congressperson, a major supporter of that effort. But there 
have been cutbacks that cause them not to expand the way that 
they should. The Belarus program would be the prime example. 
But, Ms. Orlosky, what's your takeaway from it?
    Ms. Orlosky. I think the potential to reinstate diplomatic 
relationships, it opens the door for the United States to 
really work with the Belarusian Government on its democracy and 
human rights record. And no matter how strategic Belarus can be 
in the fight against sprawling influence from the Russian 
Government, I believe the United States cannot afford to have 
another dictator friend. And the Belarusian people cannot 
afford to have United States support a dictatorship in their 
own country after the U.S. for decades has championed the rule 
of law, democratic governance, and respect for fundamental 
freedoms. So this would be my concluding remark.
    Mr. Hastings. Mr. Whitmore.
    Mr. Whitmore. I keep forgetting to do that. When I meet my 
Belarusian contacts I meet them not in Minsk but in Vilnius or 
in Warsaw. And I think that this is actually largely symbolic. 
I know it's necessary right now, but I think it's also 
symbolic, because Belarus is effectively a European nation that 
has been artificially separated from Europe by Russia. As I 
stated earlier, Belarus was part of the Polish-Lithuanian 
Commonwealth, which included not just Poland and Lithuania but 
all of what is today Belarus, all of what is today Ukraine, and 
a big chunk of what is today southern Russia. This was the 
superpower of Russia in its time, when Moscow was a backwater. 
Just like Kyiv was a booming metropolis when Moscow was an 
empty forest. So I think this is something we have to remember. 
We're talking about a European nation that has been 
artificially cut off from Europe.
    The second thing I'd want to say is that we have a window 
of opportunity right now. I agree with Sofya. We do not want to 
be an ally with a dictator. But we do have a window of 
opportunity right now because that dictator is desperate. He 
understands that his days may be numbered. It's clear that 
Russia is not happy with the current arrangement with Belarus 
and would like to change it, and would like to turn Belarus 
into, as I said, an extension of Russia's western military 
district or annex it entirely.
    There are leaks on Telegram channels that are known for 
Kremlin information--not disinformation, but actual 
information--[laughs]--that suggest that the plans are on the 
table in the Kremlin to annex Belarus. So this dictator is 
desperate. And this gives us a wonderful--it's a time of 
danger, but it also gives us a wonderful window of opportunity 
to work with the Belarusian people, to bring them where they 
belong, in Europe.
    Thank you.
    Mr. Hastings. I thank you all. You--in addition to being 
well-informed people, you're very courageous to take on these 
responsibilities, as well as others. Be assured, just by virtue 
of the fact that we scheduled this hearing, there is interest. 
And don't be dissuaded because of our lack of numbers. We have 
other commissioners. And this is perhaps the busiest season for 
us. So they will get the word. And we will brief them. And I 
thank you all so much.
    We're adjourned.
    [Whereupon, at 11:28 a.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Alcee L. Hastings, Chairman, Commission on 
                   Security and Cooperation in Europe

    Good morning and welcome. This U.S. Helsinki Commission 
hearing entitled ``Not-So-Good Neighbors: Russian Influence in 
Belarus'' will come to order.
    We all know that the Kremlin's disinformation and political 
interference reaches the shores of the United States and 
elsewhere in the region of the Organization for Security and 
Cooperation in Europe (OSCE). Yet it is easy to lose sight of 
the power that Putin's Russia wields in its own neighborhood, 
outside of its ongoing aggression in Ukraine. In the case of 
Belarus, Russia's western neighbor, the grip of the Kremlin is 
no less pervasive, but much less obvious. Russia has not 
started a hot military conflict in Belarus as it has in 
Ukraine, but rather employs economic, social, political, and 
information leverage to weaken the sovereignty of Belarus and 
pull the country further into its orbit. I saw this firsthand 
during my last trip to Minsk for the OSCE Parliamentary 
Assembly Annual Session in July 2017.
    Unfortunately, Belarus is ripe for infiltration by external 
forces. Civil society and fundamental freedoms have been 
stifled under the 25-year rule of Belarusian President 
Alexander Lukashenko, who has cultivated a strong working 
relationship with Vladimir Putin. The two use similar tactics 
to crush dissent in their respective countries. Belarus is also 
heavily economically dependent on Russia, with its economy 
propped up by discounted oil and gas from its neighbor. The 
shared Soviet history of the two countries makes it easy for 
Russia to appeal to the hearts and minds of many Belarusians, 
and the Lukashenko regime is feeling the squeeze. And with 
little linguistic or cultural barriers, the Kremlin and its 
partners easily operate in the media and information sphere in 
Belarus, spreading pro-Russian propaganda in an effort to keep 
Belarus from turning toward the West.
    In this context, Lukashenko has sought to vector West for 
fear of his regime. He has sought to engage with leaders of the 
European Union through the Eastern Partnership and, when 
possible, has sought meetings with U.S. leaders, including the 
Congressional Delegation I traveled with in 2017. I found that 
he, like other autocrats, was not interested in the dreams of 
his people, but made standard stability appeals to defend his 
regime.
    Despite Lukashenko's lack of imagination and decades of 
oppressing his people, we must not forget that Belarus is an 
independent country whose sovereignty is under attack. And as 
another target of Russian malign influence in the OSCE area, 
proper scrutiny will prevent active conflict and empower those 
oppressed voices who have waited so long for justice. Today 
we'll explore the complexities of the Russia-Belarus 
relationship and what the United States can do to defend 
Belarus, this important crossroads between Russia and the West, 
against Russian attacks.
    At this time, I would like to acknowledge my fellow 
Commissioners in attendance for any opening remarks they wish 
to make.

           *       *       *       *       *       *       *

    We have assembled here an expert panel to discuss Belarus 
in the context of Russia's malign influence:
    First, we have Andrei Yeliseyeu, who serves as Head of the 
Monitoring Unit for iSANS, the International Strategic Action 
Network for Security, based in Warsaw, Poland. iSANS is an 
international expert initiative established in 2018 and aimed 
at detecting, analyzing and countering hybrid threats against 
democracy, rule of law, and the sovereignty of states in 
Western, Central, and Eastern Europe and Eurasia.
    Our next witness is Sofya Orlosky, the Senior Program 
Manager for Eurasia at Freedom House here in Washington, where 
she leads the development of engagement and advocacy strategies 
for its Europe and Eurasia portfolio.
    Then we will hear from Franak Viacorka, who is a Research 
Media Analyst at the US Agency for Global Media, where he 
focuses on the digital markets of Eurasia.
    Finally, we have Brian Whitmore, a Senior Fellow and 
Director of the Russia Program at the Center for European 
Policy Analysis (CEPA) here in Washington. He is also the 
author of The Power Vertical Blog and host of The Power 
Vertical Podcast, both of which focus on Russian affairs.
    Please note that the full biographies of our witnesses can 
be found in the provided materials. Thank you to our assembled 
witnesses, and I call on Andrei Yeliseyeu to begin his 
testimony.

 Prepared Statement of Hon. Joe Wilson, Ranking Member, Commission on 
                   Security and Cooperation in Europe

    It is curious that as we monitor Russia's malign influence 
on its neighbors as well as far abroad, we pay so little 
attention to what is going on in Belarus. Perhaps this is 
because we have much more evident and headline-grabbing news 
available when discussing the Kremlin's attempts to meddle in 
our own elections and society. Just as dramatic and concerning 
is Russian military adventurism--whether it be in Syria, 
Ukraine, Georgia, and even places as far-flung as the Central 
African Republic. Vladimir Putin tramples on international law 
and attempts to erode liberal, democratic norms where they are 
just beginning to grow, or even where they are already well-
established.
    Though not a military conquest, Putin's designs on Belarus 
should be just as concerning to us as the above-mentioned 
examples. As the chains of the old Iron Curtain have been 
broken, and as democracy and the rule of law have moved 
steadily eastward, Belarus remains a stubborn outlier. Why is 
this? We know that part of the reason is lack of significant 
structural reforms after the fall of the Soviet Union. Still 
known for its collective farms and state-owned enterprises, 
Belarus has an economy stuck in the past. Another part of the 
reason is the dictatorship of President Alexander Lukashenko, 
who has ruled the country for most of its post-Soviet 
existence, by falsifying elections and marginalizing, even 
violently punishing, dissenters. And finally, Russia's tight 
grip on its old Soviet friend is unrelenting, taking advantage 
of Belarus' weaknesses to create a vassal state subject to its 
whims.
    We know that as longtime authoritarian leaders, Putin and 
Lukashenko have many things in common and many incentives to 
work together. But, as I hope we will learn over the course of 
this hearing, there are questions about how long this cozy 
relationship can last. Lukashenko is a tyrant but not a fool--
he knows that engagement with Europe and the West is not 
optional in this day and age, and he sees how Putin's greedy 
fingers have reached into Ukraine. He is being forced to make 
some difficult decisions about the direction the country should 
take.
    We can only hope that these decisions bring greater freedom 
to the people of Belarus, who for too long have lived without 
the opportunity to express themselves without fear of 
repression. The younger, globally-connected generations in 
particular can easily see the opportunities and freedoms 
available in the West. They, along with all Belarusians, 
deserve the opportunity to determine their own futures. A 
Belarus tied down by Putin's Russia is a Belarus stuck in the 
Soviet past and subservient to Moscow. I look forward to 
hearing our witnesses comment on the prospects for Belarus' 
future and ways to combat Russia's pernicious influence.
    Thank you.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    As much as the toxic relationship between Belarus and 
Russia presents a challenge to liberal democracy in Eastern 
Europe, it also provides opportunities for exploiting existing 
fractures in the Russia-Belarus relationship. We have lately 
seen that all is not well between Presidents Putin and 
Lukashenko. Disputes over oil and how deep the level of 
integration between the two countries should be have made 
cracks in what was once a strong partnership. The strong 
relationship between Belarus and Russia still exists, but 
Russia's adventurism abroad over the past few years may have 
planted doubts in Lukashenko's mind that the peace can last. 
His need for control in his own country and his reliance on 
Moscow for legitimacy place him in a precarious position.
    It is in this position that the opportunity arises for 
Western engagement with Belarus. In the past few years, 
Lukashenko has expressed an unprecedented openness to the West 
that may be a protective response to Putin's designs on 
Belarusian sovereignty. After over a decade of a constricted 
U.S. diplomatic presence in Belarus, and no ambassador, 
Belarusian Foreign Minister Vladimir Makei and U.S. Under 
Secretary of State for Political Affairs David Hale met and 
announced that ambassadors would be exchanged once again. The 
executive branch, in this administration and the previous, has 
sent high-level representation to Belarus that has not been 
seen for quite some time. Belarus has also sought to reach out 
to the rest of the world by instituting visa-free regimes for 
more countries than ever. It is clear that Russia's adventurism 
in the past few years has softened Belarusian policy toward the 
US and the EU.
    It is important to remember, however, that Belarus is an 
authoritarian state, and we must not lose sight of the human 
elements when attempting to build a better working 
relationship. Civil society and fundamental freedoms are 
regularly repressed in the country, and its last truly free and 
fair election was held 25 years ago. When it comes to human 
rights, Belarus is in a post-Soviet rut that has not abated, as 
it has in many of its neighbors. Lukashenko will have to 
consider serious reforms, at the expense of his own personal 
power, if he truly wishes for better cooperation with the West. 
It is not clear he is willing to do that.
    So, are friendly gestures on the part of Lukashenko sincere 
or a false front? Can he navigate a foreign policy somewhere 
between Russia and the West, or will Belarus find itself pulled 
to one side? Our witnesses will no doubt share their expert 
opinions on Lukashenko's thought processes and the prospects 
for Belarus' relationship with Russia and with the West.
    Thank you.

   Prepared Statement of Andrei Yeliseyeu, Head of Monitoring Unit, 
 International Strategic Action Network for Security (iSANS); Research 
                         Director, EAST Center

    Dear Chairman and Members of the Commission,
    Thank you for organizing this Belarus-related hearing, 
particularly in this busy time in Washington DC, and for the 
opportunity to join this distinguished panel on the threats to 
Belarusian sovereignty.
    Malign Kremlin influence on Belarus pursues a goal of 
pulling Belarus even deeper into the Kremlin orb, essentially 
turning it into a part of USSR 2.0. Kremlin sees Belarus as an 
integral part of the Russian World with Russia's legitimate 
right to constrain Belarusian sovereignty.
    To achieve its goals regarding Belarus, Kremlin, either 
directly or through its proxies, applies political, economic 
and propagandistic pressure on the Belarusian authorities and 
the Belarusian society. Largely the same mix of governmental, 
semi-governmental and non-governmental actors stand behind the 
`coercion to integration' project towards Belarus, which 
meddles in the affairs of many other countries, including the 
US, the CEE, Balkan, and Baltic states.
    Belarus appears to be the most vulnerable to malign Kremlin 
influence though, due to deep institutional, economic, social 
and cultural connections between the two countries' elites and 
short-sighted repressive policies of the current ruling regime 
against Belarusian language, independent media and civil 
society.

Anti-Belarusian propaganda and disinformation 

    You all must be aware that Ukraine remains top target of 
Kremlin propaganda. Unlike Ukraine, Belarus is rather rarely 
covered by Russian federal TV channels. However, when it comes 
to online space, Belarus is already not far behind Ukraine in 
terms of scale and scope of pro-Kremlin propaganda and 
disinformation. In the last two years, a dozen of pro-Kremlin 
websites which previously had Ukraine and/or Syria as their 
primary targets, added Belarus as additional regular topic. At 
least three generations of pro-Kremlin propagandistic websites 
can be discerned, the third being the most aggressive and 
numerous.
    In the last two years, several new active outlets of 
disinformation and hate speech which are entirely devoted to 
events in Belarus have appeared online. Their number currently 
stands at about 15. The number of online resources which 
regularly publish items related to Belarus and contain 
disinformation, propaganda narratives and hate speech has 
increased several-fold--to about 40 fairly active sites in and 
around Belarus.
    A fully-fledged coordinated network of regional online 
portals with regular publications containing hate speech 
against various social, political, religious, and professional 
groups of the Belarusian population began its activity in 2018. 
Publications use aggressive, chauvinistic rhetoric, sometimes 
openly questioning the existence of an independent Belarusian 
ethnic group and language, discrediting and distorting the 
history of Belarus, using derogatory claims about national 
symbols and generally about Belarus-minded people.

Anti-Belarusian propaganda includes such preposterous claims 
as:

    <bullet> LBelarusian people are a part of Russian people, 
Belarusians are Russians;

    <bullet> LThe Belarusian language was artificially created 
by the hostile West a hundred years ago;

    <bullet> LThe West's objective is to turn Belarusians into 
cannon fodder by creating an ``artificial language'' and 
religion for them.

    Furthermore, this range of websites purposefully discredits 
the West and all Belarus' neighboring countries but Russia. 
They regularly present Ukraine as a puppet country, which is 
governed by external actors and/or by fascists/Nazis, Poland as 
a country with imperialistic dreams of taking over Belarus, and 
the Baltic countries as pro-Nazi, depopulated, economically 
devastated countries. On the contrary, Russia is presented as a 
country morally superior to the West and as the only real 
Belarus' ally which guarantees Belarus sovereignty and 
protection from malign Western influences.

Belarus' localization of automatically generated
news services

    Due to sustainably irresponsible state policies in the 
media field, a large part of the country population literally 
lives in the Russian media space. Oddly enough, Western media 
corporations such as Google and Apple unwillingly make Russian 
online media presence in Belarus even larger. This happens 
because of the absence of fully functional geotargeting for 
Belarus in the automatically generated news services. At 
present a growing number of news consumers use such services on 
their mobile phones without visiting any certain websites.
    The launch of news aggregators based on recommendation 
algorithms has had a significant impact on the Belarusian media 
market. The absence of fully functional geotargeting for the 
country puts Belarusian journalists in unequal position 
compared to their colleagues in neighboring countries. By 
placing Belarusian users into a larger Russian-speaking segment 
and localizing the news content only partially, internet 
corporations make the Belarusian media market weaker and hinder 
its development.
    Recently a declaration by the largest Belarus media 
community members on this very issue was produced. It calls the 
national and foreign government institutions, representatives 
of global corporations to make Belarus a fully independent and 
sovereign country on the global internet map by recognizing the 
Belarusian segment of the internet as a distinct market. 
Belarusian media should be prioritized in the ranking of 
information sources proposed by automatically generated news 
recommendation systems for users who choose Belarus as their 
primary region.

Energy deals with Russia and economic pressure 

    Over the last two decades Belarus traded geopolitical 
loyalty and military cooperation for Russia's generosity. Low 
prices for Russian gas, beneficial schemes for Russian oil 
processing, an open market for Belarusian goods, and other 
forms of Russian financial assistance allowed Alexander 
Lukashenko to keep the largely unreformed economy afloat. The 
terms of oil supplies to Belarus was the most important 
bargaining issue for Lukashenko in exchange to deepening 
Eurasian integration in 2010-2011 and 2014.
    Due to Russian reform in the oil sphere, export duties on 
oil and oil products will be reduced to zero by 2024 and excise 
taxes for the oil industry are gradually increased starting 
from 2019. Belarus expects to lose around $300 million in 2019 
and the total cost in the next five years is estimated at USD 
10 billion from Russia's new tax policy.
    Whereas oil-processing industry is one of the most 
profitable sectors of Belarusian economy, the main energy 
source for Belarusian enterprises and residents is Russian 
natural gas. Belarus' national strategy of energy sector 
development, which was adopted in 2010, set an objective to 
reduce gas consumption by 6 million cubic meters and to lower 
the Russia's share in Belarus' energy consumption to 57% by 
2020. These objectives largely remained on paper. Belarus 
consumed around 20 billion cubic meters of Russian gas in 2018, 
which places Belarus in the top Russian gas importers.
    The Belarus' energy security concept adopted in 2015 aims 
to reduce the share of Russian energy in the total energy 
import from 90% to 70% by 2035. Thanks to the launch of 
Belarusian nuclear power plant (NPP) and a wider use of 
renewable energy Minks plans to decrease the share of gas in 
the total energy consumption from 90% to less than 50% by that 
time.
    The Belarusian NPP is being built with Russian technology 
and money. Belarus will be dependent on the Russian import of 
nuclear fuel. Hence, Belarus will hardly become less energy 
dependent on Russia thanks to the launch of the NPP. Export of 
electricity produced by the NPP given the current Lithuania and 
Poland's positions and the lack of sufficient domestic 
infrastructure to consume that big surplus of electricity will 
be a serious challenge for Belarus.
    Minsk has already asked Moscow to ease the payment terms of 
Russian loan for NPP. However, this and many other loan items 
in Belarus-Russia relations are conditioned with a deeper 
integration by Kremlin. Without political will and coherent 
practical steps the objectives defined by the Belarus' energy 
security concept will largely remain on paper, just as it 
earlier happened to previous national energy strategy.

The risks of the Union State between Belarus and Russia 

    Belarus expects to get Russian compensations for the losses 
associated with Russia's new tax policy in oil sphere. However, 
Kremlin conditions this with deepened integration within the so 
called Union State. Other economic issues that Kremlin 
explicitly made dependent on Belarus' further integration with 
Russia include the terms for loans and gas prices for the years 
to come.
    In early September 2019 a bilateral action plan on 
deepening integration was initialed by the two countries' prime 
ministers. The plan has not been made public despite its great 
importance for the country, high public interest, and requests 
by parliamentarians. The whole negotiating process between the 
two countries' working groups on integration is secretive. 
Nevertheless it is obvious that the action plan and 31 roadmaps 
to accompany it are based on the 1999 Treaty on the Union State 
between Belarus and Russia. The action plan on deeper 
integration likely envisages the creation of common Tax and 
Civil Codes, a largely unified banking supervision, legal 
approximation in virtually all spheres, etc.
    Kremlin's aim is to tightly tie Belarus to Russia in 
various spheres and to extract additional chunks of Belarusian 
sovereignty in exchange of further economic and political 
support of Lukashenko. The threat is that, in case Belarusian 
authorities follow this road, Belarus can end up preserving 
only nominal sovereignty, in reality finding itself completely 
dependent on Moscow in virtually any Belarusian domestic or 
foreign policy.
    A loss of Belarusian sovereignty would be a catastrophe not 
only for the people of Belarus who dreamed of a sovereign and 
independent country for many generations. This tragic turn 
would also encourage further Russia's aggressive behavior 
towards its immediate neighbors and global democratic community 
and instigate further attempts to destabilize regional 
security.

Conclusions 

    Greater attention of the international community to 
developments in Belarus and urgent efforts are needed to 
preserve Belarusian sovereignty, despite very complicated 
relationship with its non-democratic government. We need the 
international community to promote positive changes in Belarus, 
including political, social, and economic reforms in the 
country, broadening of civic space and empowerment of 
Belarusian civic actors, and enhancing Belarusian society's 
resilience to external threats.

Important areas of actions to preserve Belarusian sovereignty 
include:

    <bullet> LUncovering, countering, and deterring Russian 
malign influence towards Belarus;
    <bullet> LSupport to the new generation of civil society 
actors and independent media;
    <bullet> LStrengthening Belarusian identity by supporting 
initiatives aimed at promotion of Belarusian language, culture, 
and history.
    <bullet> LSmart assistance and engagement with the 
Belarusian authorities. Belarus needs to undertake economic 
reforms with international assistance clearly conditioned on 
policy change, including liberalization in the media and civil 
society's spheres.

    I want to thank the U.S. Helsinki Commission once again for 
holding this hearing and placing your focus on Belarus and 
threats to its sovereignty. I look forward to answering your 
questions.

    Prepared Statement of Sofya Orlosky, Senior Program Manager for 
                        Eurasia, Freedom House 
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                        
                        

Prepared Statement of Franak Viacorka, Research Media Analyst 
               (contractor), U.S. Agency for Global Media
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
               
Prepared Statement of Brian Whitmore, Senior Fellow and Director of 
                        the Russia Program, CEPA
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                        
                        


                     <all>





  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
